No. 20-1800
IN THE

Supreme Court of the United States
HAROLD SHURTLEFF; CAMP CONSTITUTION,

Petitioners,

v.

CITY OF BOSTON AND ROBERT MELVIN, IN HIS
CAPACITY AS COMMISSIONER OF THE CITY OF BOSTON
PROPERTY MANAGEMENT DEPARTMENT,

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the First Circuit
BRIEF IN OPPOSITION
HENRY C. LUTHIN

Corporation Counsel, City of Boston

SUSAN M. WEISE

Counsel of Record

ROBERT S. ARCANGELI
CITY OF BOSTON LAW DEPARTMENT
One City Hall Square, Room 615
Boston, MA 02201
(617) 635-4044
susan.weise@boston.gov
robert.arcangeli@boston.gov
Dated: July 23, 2021
BATEMAN & SLADE, INC.

STONEHAM, MASSACHUSETTS

COUNTERSTATEMENT OF
QUESTIONS PRESENTED
1.

Whether this case is appropriate for
certiorari review where (a) the analysis to
determine whether a government entity has
engaged in government speech has been
defined by the Court in recent decisions in
Pleasant Grove City v. Summum, 555 U.S.
460 (2009) and Texas Div., Sons of
Confederate Veterans, Inc. v. Walker, 135 S.
Ct. 2239 (2015); and (b) the First Circuit held
that the selection and presentation of flags
on a City-owned flagpole constitutes
government speech consistent with the
factors espoused in Summum and Walker?

2.

Whether this case is appropriate for
certiorari review where the First Circuit
held forum analysis was inappropriate
where a finding of government speech had
been made by the Court, consistent with the
decisions in Summum and Walker?

i

TABLE OF CONTENTS
COUNTERSTATEMENT OF QUESTIONS
PRESENTED .................................................... i
TABLE OF AUTHORITIES .......................................v
I.

STATEMENT OF THE CASE ..............1

II.

REASONS FOR DENYING THE
PETITION ...............................................5
A.

The Selection And
Presentation Of Flags By
The City On A City-Owned
Flagpole Constitutes
Government Speech. ...................6
1.

Governments Have
Long Used Flags To
Communicate
Messages To The
Public And Select
Messages With
Which The City
Chooses To Identify. .........9

ii

2.

Observers Of A Flag
Flying Above City
Hall Would
Reasonably
Interpret The Flag
As Conveying A
Message On The
City’s Behalf And
Perceive The City
As The Speaker. .............10

3.

The City Effectively
Controls Messages
Broadcast Through
Its Flagpole By
Exercising Final
Approval Authority
Over The Flags
That Are Raised. ............12

4.

Petitioners’ Reliance
On the Court’s
Decision In Matal Is
Misplaced Where
Federal Trademarks
Bear Little
Resemblance To A
Flag Raised On An
83 Foot Tall, CityOwned Flagpole
Located In Front Of
City Hall. ........................16

iii

B.

The City Has Not
Designated Its Flagpole As
A Public Forum. ........................18
1.

The Facts Do Not
Support The
Conclusion That
The City Hall Flag
Pole Is A
Designated Public
Forum. ............................18

2.

By Engaging In
Government Speech,
The City Does Not
Implicate The
Defendants’ Rights
Under The First
Amendment and
Forum Analysis Is
Inappropriate..................21

3.

Forum Analysis Is
Inappropriate
Where The
Viewpoint
Neutrality And
Open Access
Mandated By The
Forum Doctrine Are
Incompatible With
The Purpose Of The
City’s Flagpole. ...............23

CONCLUSION ..........................................................26
iv

TABLE OF AUTHORITIES
CASES:
Ark. Edu. Television Comm’n v. Forbes,
523 U.S. 666 (1998) ...................... 18, 23-24, 25
Capitol Square Review and Advisory Bd. v. Pinette,
515 U.S. 753 (1995) ........................................22
Cornelius v. NAACP Legal Def. & Educ. Fund, Inc.,
473 U.S. 788 (1985) ..................................18, 21
Eagle Point Educ. Ass’n/SOBC/OEA v.
Jackson Cnty. Sch. Dist. No. 9,
880 F.3d 1097 (9th Cir. 2018) ........................23
Griffin v. Oceanic Contractors, Inc.,
458 U.S. 564 (1982) ........................................16
Griffin v. Sec’y of Veterans Affairs,
288 F.3d 1309 (Fed. Cir. 2002).....................8, 9
Matal v. Tam,
137 S. Ct. 1744 (2017) ........................ 16, 17, 23
Mech v. School Bd. of Palm Beach Cty., Fla.,
806 F.3d 1070 (11th Cir. 2015) ........................8
Nat’l Endowment for Arts v. Finley,
524 U.S. 569 (1998) ..........................................6
New Hope Family Services, Inc. v. Poole,
966 F.3d 145 (2d Cir. 2020) ........................7, 23

v

Perry Educ. Ass’n v. Perry Local Educators’ Ass’n,
460 U.S. 37 (2001) ..........................................18
Pleasant Grove City v. Summum,
555 U.S. 460 (2009) ................................ passim
Robb v. Hungerbeeler,
370 F.3d 735 (8th Cir. 2004) ..........................23
Rosenberger v. Rector and Visitors of Univ. of Va.,
515 U.S. 819 (1995) ..........................................6
Rust v. Sullivan,
500 U.S. 173 (1991) ..........................................6
Shurtleff v. City of Boston,
928 F.3d 166 (2019) ............................ 15, 20, 22
Sutliffe v. Epping Sch. Dist.,
584 F.3d 314 (1st Cir. 2009) ................... passim
Texas Div., Sons of Confederate Veterans, Inc. v.
Walker, 135 S. Ct. 2239 (2015) .............. passim
United Veterans Memorial and Patriotic Ass’n
of the City of New Rochelle v.
City of New Rochelle,
72 F. Supp. 3d 468 (S.D.N.Y. 2014) aff’d,
615 F. App’x 693 (2d Cir. 2015) ......... 11, 22-23
W. Va. State Bd. of Educ. v. Barnette,
319 U.S. 624 (1943) ..........................................9
Wandering Dago, Inc. v. Destito,
879 F.3d 20 (2d Cir. 2018) ..........................7, 23
vi

I.

STATEMENT OF THE CASE

This case arises out of a dispute between
Petitioners,
Harold
Shurtleff
and
Camp
Constitution,1 and Defendants, the City of Boston and
Gregory T. Rooney, in his official capacity as
Commissioner of the City of Boston Property
Management Department,2 over the City’s denial of
Petitioners’ request to display a “Christian flag” on a
City owned flagpole in connection with an event to be
held at the flagpoles on City Hall Plaza on or around
September 17, 2018.
The City owns and manages three flagpoles in
an area in front of City Hall referred to as City Hall
Plaza. (App. 141a.)3 The three flagpoles are each
approximately eighty-three feet tall and are
prominently located in front of the entrance to City
Hall, which is the seat of the city government of
Boston. (Id.) Generally, the City raises the United
States of America flag and the National League of
Families POW/MIA flag on one pole, the
Commonwealth of Massachusetts flag on a second
pole, and the City of Boston flag on the third pole.
(App. 141a-142a.) The dispute in this case focuses on
the third flagpole, where the City at times will replace
the City of Boston flag with another flag, typically at
the request of a third party. (App. 142a.) Such a
request is often made in connection with an event
Camp Constitution and Harold Shurtleff will be
referred to collectively as “Petitioners” herein.
1

2 The City of Boston and the predecessor to Robert
Melvoin as the City’s Commissioner of the Property
Management department, Gregory T. Rooney, will be referred to
collectively as the “City” herein.

References to the Appendix filed by the Petitioners will
be referred to as “App.” Followed by the page number.
3

1

taking place on City-owned property within the
immediate area of the flagpoles. (Id.)
The City has published event guidelines on its
website for those wishing to hold an event at locations
near City Hall. (App. 133a.) The guidelines state that
applicants need the City’s permission to hold events
at City-owned properties and directs applicants to an
application form that they can fill out to request an
event at certain locations. (Id.) Locations at which one
may hold an event include Faneuil Hall, Sam Adams
Park, City Hall Plaza, the City Hall Lobby, the City
Hall Flag Poles and the North Stage. (Id.) The
website refers to these portions of City-owned
properties as locations at which one may hold an
event. (App. 133a.) The website does not make any
reference to a flag-raising event where a third party
may request to raise a flag on one of the City’s three
flagpoles. (Id.)
The City also provides a written event
application form for those that do not apply online to
hold an event near City Hall. (App. 135a.) The
written application states that it “applies to any
public event proposed to take place at Faneuil Hall,
Sam Adams Park, City Hall Plaza, City Hall Lobby,
North Stage or the City Hall Flag Poles.” (App. 136a.)
The application further states that the City “seeks to
accommodate all applicants seeking to take
advantage of the City of Boston’s public forums.”
(App. 137a.) Similar to the online application, the
written application refers to the City-owned
properties as locations at which one may hold an
event and no reference is made to a flag-raising event
taking place on one of the City’s three flagpoles. (App.
136a.)
The website and written application each
contain guidelines outlining the circumstances under
2

which an application for an event at a city-owned
property may be denied. (App. 133a-140a.) An
application may be denied if the event involves illegal
or dangerous activities or if it conflicts with scheduled
events. (Id.) An application may also be denied if the
applicant fails to adhere to the additional guidelines
stated on the City’s application. (Id.) Once an
application is received, the City’s policy is to review
the request to ensure that the proposed event satisfies
these guidelines. (App. 140a-141a.)
At the time of Petitioners’ flag request, the City
had no written policies specifically addressing flag
raising applications. (App. 140a.) From June 2005
through June 2017, the City approved 284 flag raising
events, including 39 event approvals in the year
directly preceding Petitioners’ request. (App. 142a143a.) The City has raised flags of other countries in
place of the City of Boston flag, e.g., the flags of Brazil,
Ethiopia, Portugal, Puerto Rico, the People’s Republic
of China and Cuba. (Id.) The City has also raised the
flags of private organizations including the
Juneteenth flag representing the end of slavery, the
LGBT rainbow Pride flag, the pink transgender rights
flag and the Bunker Hill Association flag. (Id.) Some
of these flags contain religious imagery. The flag of
Portugal contains “dots inside the blue shields
represent[ing] the five wounds of Christ when
crucified” and “thirty dots that represents [sic] the
coins Judas received for having betrayed Christ.”
(App. 147a.) The City of Boston flag includes the
Boston seal’s Latin inscription, which translates to
“God be with us as he was with our fathers.” (App.
144a.) The Bunker Hill Association flag contains a red
cross against a white field. (App. 146a.)
The City had never denied a flag raising
request prior to Petitioners’ request. (App. 142a.) The
3

City had also never requested to see a proposed flag
prior to approval of a flag raising request. (App. 150a.)
The City considered Petitioners’ request to be the first
it had received related to a religious flag. (Id.)
Commissioner Rooney conducted a review of past flag
raising requests and determined that the City had no
past practice of flying a religious flag. (App. 151a152a.) Following the denial of the request, Petitioners
requested an official reason for the denial. (App.
152a.) Rooney responded that the City’s policy was to
refrain respectfully from flying non-secular flags on
the poles in accordance with the First Amendment’s
prohibition of government establishment of religion
and in keeping with the City’s authority to decide how
it uses limited government resources. (App. 153a154a.) The City did not deny the Petitioners’ request
to hold the event, but rather denied the request to
raise the Christian flag and suggested the raising of a
non-religious flag as an alternative. (App. 154a.) On
September 13, 2017, Petitioners renewed their flag
raising request. (App. 158a.) The City did not respond
to the second request. (App. 158a.)
In October 2018, after the denial at issue in
this case, the City promulgated a written Flag
Raising Policy that codified past policy and practice
and did not change how flag requests would be
handled by the City. (App. 159a-160a.) The written
policy includes seven “Flag Raising Rules,” the first of
which is “[a]t no time will the City of Boston display
flags deemed to be inappropriate or offensive in
nature or those supporting discrimination, prejudice,
or religious movements.” (Id.) The City also created a
webpage for flag-raising events which states the goals
for the events:
We commemorate flags from many
countries and communities at Boston
4

City Hall Plaza during the year. We
want to create an environment in the
City where everyone feels included and
is treated with respect. We also want to
raise awareness in Greater Boston and
beyond about the many countries and
cultures around the world. Our goal is to
foster
diversity
and
build
and
strengthen connections among Boston’s
many communities.
(App. 143a.)
The City has denied one other flag-raising
event request since denying Petitioners’ request.
(App. 160a.) The City denied the request of Super
Happy Fun America to raise a “Straight Pride” flag on
the City Hall Flag Poles. (Id.)
II.

REASONS FOR DENYING THE PETITION

The Petitioners’ contention that the City
violated their free speech rights when the City denied
the request to fly a Christian flag in front of City Hall
must fail. When the City raises a third-party flag on
the City Hall Flag Poles, which are prominently
located in front of City Hall and over which the City
maintains ownership and control, it is engaging in
government speech consistent with the Court’s recent
decisions in Pleasant Grove City v. Summum, 555
U.S. 460 (2009) and Texas Div., Sons of Confederate
Veterans, Inc. v. Walker, 135 S. Ct. 2239 (2015).
When engaging in government speech, the City has
the same freedom to express itself as individuals and
cannot be compelled to engage in speech it does not
endorse. Therefore, the traditional forum analysis
applicable to private speech on government property
does not apply and Petitioners may not maintain their
5

claim that the City engaged in viewpoint
discrimination. The City’s flagpole is not a public
forum, it is government property which the City may
use in a manner best suited to its goals. Petitioners
therefore have no constitutional right to express their
message on the City’s flagpole nor can they force the
City to express itself in a particular way.
For these reasons, which are developed more
fully below, this Court should deny the petition for
writ of certiorari.
A.

The Selection And Presentation Of Flags
By The City On A City-Owned Flagpole
Constitutes Government Speech.

The entire premise of Petitioners’ argument
rests on its conclusion that the City’s flagpoles are a
public forum available for private speech and that the
City violated Petitioners’ free speech rights when it
denied their request to fly the Christian flag. The Free
Speech Clause does not regulate or limit the
government when it uses its own property to engage
in its own speech. Summum, 555 U.S. at 467-68. A
governmental entity is “entitled to say what it
wishes,” Rosenberger v. Rector and Visitors of Univ.
of Va., 515 U.S. 819, 833 (1995), and to select the
views that it wants to express. See Nat’l Endowment
for Arts v. Finley, 524 U.S. 569, 598 (1998); Rust v.
Sullivan, 500 U.S. 173, 194 (1991). Furthermore, a
government’s own speech is exempt from First
Amendment scrutiny. Sutliffe v. Epping Sch. Dist.,
584 F.3d 314, 329 (1st Cir. 2009). Government has
the same freedom to express itself as it wishes even
when receiving third-party assistance for the purpose
of delivering a government message. See Summum,
555 U.S. at 468.

6

The Summum Court relied on three factors in
determining that the selection and presentation of
privately donated, permanent monuments in a cityowned park constituted government speech. See id. at
470-80; Walker, 135 S. Ct. at 2247; see also
Wandering Dago, Inc. v. Destito, 879 F.3d 20 (2d Cir.
2018)(stating that the Walker Court cited three
factors underlying its conclusion and that the
Summum Court applied a similar framework in
reaching its decision.); New Hope Family Services,
Inc. v. Poole, 966 F.3d 145, 174-78 (2d Cir.
2020)(Court cites the three factors present in
Summum and Walker decisions and applies those
three factors in determining the absence of
government speech.) Petitioners’ argument that the
First Circuit created a novel, three-part test to
analyze government speech is not supported by cases
decided by this Court and other Circuit Courts.
First the Summum Court focused on tradition
and the fact that history has demonstrated that
governments have long used monuments to speak to
the public. Summum, 555 U.S. at 470; see also
Walker, 135 S. Ct. at 2247. Second the Summum
Court accepted the proposition that a property owner
typically does not open his or her property to the
installation of monuments that convey messages with
which he or she do not want to associate. 555 U.S. at
471. Because property owners do not usually behave
in such a manner, those “who observe donated
monuments routinely – and reasonably – interpret
them as conveying some message on the owner’s
behalf,” and there is little chance that “observers will
fail to appreciate the identity of the speaker.” Id.; see
also Walker, 135 S. Ct. at 2247. The third factor
relied upon is that the government had effectively
controlled the monuments by exercising final
7

approval authority over their selection. Summum,
555 U.S. at 473; see also Walker, 135 S. Ct. at 2247.
Furthermore, the fact that a town or government does
not have a written policy in place is irrelevant as to
whether a government or town’s actions constitute
government speech. See Sutliffe, 584 F.3d at 332; see
also Summum, 555 U.S. at 473 (stating that the
town’s subsequent adoption of express criteria to use
in making future monument selections supported a
finding of government speech).
Other Circuit Courts, have focused on the
Summum and Walker factors in determining that
government rejection of private viewpoints
constituted government speech. See Sutliffe, 584
F.3d at 329 (holding town’s use of town website to
advocate for approval of budget and its refusal to
include hyperlink to Petitioners’ website, which
communicated
opposing
views,
constituted
government speech because town’s decision to include
certain hyperlinks was within its sole discretion and
communicated an important message about its own
views); see also Mech v. School Bd. of Palm Beach
Cty., Fla., 806 F.3d 1070, 1075 (11th Cir. 2015)
(finding school’s decision to remove appellant’s
advertising banner from its fence constituted
government speech where circumstances indicated
school’s endorsement); see also Griffin v. Sec’y of
Veterans Affairs, 288 F.3d 1309, 1324 (Fed. Cir. 2002)
(“We have no doubt that the government engages in
speech when it flies its own flags over a national
cemetery, and that its choice of which flags to fly may
favor one viewpoint over another.”).

8

1.

Governments Have Long Used
Flags To Communicate Messages
To The Public And Select
Messages With Which The City
Chooses To Identify.

With regards to the instant case, the use of
flags to communicate messages throughout history
and into the present day is beyond dispute. W. Va.
State Bd. of Educ. v. Barnette, 319 U.S. 624, 632
(1943)(“The use of an emblem or flag to symbolize
some system, idea, institution, or personality, is a
short cut from mind to mind. Causes and nations,
political parties, lodges and ecclesiastical groups seek
to knit the loyalty of their followings to a flag or a
banner…”); Griffin v. Sec’y of Veterans Affairs, 288
F.3d 1309, 1324 (Fed. Cir. 2002) (Government
engages in speech when it flies its own flags over a
national cemetery and may favor one viewpoint over
another in selecting flags).
Furthermore, the City maintains a website
dedicated to its flag-raising events declaring the
City’s goal of commemorating flags from many
countries and communities at City Hall Plaza during
the year by conducting such events. (App. 143a.)
Here, the City has chosen to communicate messages
to the public through the presentation of flags on its
flagpoles celebrating the many communities that
make up Boston and identify the City as a diverse
community. Evidence of such a purpose is consistent
with both the traditional use of flags as a means for
government to communicate with and identify itself
to the public and supports a finding that the City has
engaged in government speech through the selection
and presentation of flags on its flagpoles. See
Summum, 555 U.S. at 472 (stating that governments
“select the monuments that portray what they view
9

as appropriate for the place in question, taking into
account such content-based factors as esthetics,
history, and local culture.”).
2.

Observers Of A Flag Flying Above
City Hall Would Reasonably
Interpret The Flag As Conveying
A Message On The City’s Behalf
And Perceive The City As The
Speaker.

The second factor in the Summum analysis
focused on the close identification between
government-owned land and the public mind
resulting in “little chance that observers will fail to
appreciate the identity of the speaker” as the
government when viewing a monument situated on
public land. 555 U.S. at 471-72. When the Court in
Summum determined that the City would be the
reasonably perceived speaker with regards to
monuments placed in its public park, it focused on the
practical, common sense principal that “it certainly is
not common for property owners to open up their
property for the installation of permanent
monuments that convey a message with which they
do not wish to be associated.” Id.
In Walker, the Court found that license plates
“are often closely identified in the public mind with
the [State]” and that in this case they were
“essentially government IDs,” noting that in Texas
the state required each driver to display a plate,
issued its own plates, and included the word “TEXAS”
at the top of every plate. 135 S. Ct. at 2248.
Furthermore, the state dictated the manner in which
drivers disposed of unused plates. Id. The presence of
close identification between the license plates and the
state that issued them made it reasonable that the
10

state issuing the plate would routinely and
reasonably be perceived as the speaker of the
displayed message. See also United Veterans
Memorial and Patriotic Ass’n of the City of New
Rochelle v. City of New Rochelle, 72 F. Supp. 3d 468,
474, 478 (S.D.N.Y. 2014) aff’d, 615 F. App’x 693 (2d
Cir. 2015) (granting city’s motion to dismiss
Petitioner’s claim that city violated its First
Amendment rights by removing its flag from city
armory flagpole where reasonable observer would
assume the flag, located on a flagpole on city property
used for park and recreation purposes, was conveying
a message on city’s behalf, even where city had ceded
control of flagpole to private organization).
Additionally, government speech is found where it is
inherent from the nature of a request that the
requestor is not merely seeking to engage in his or her
desired speech but is instead seeking to convey
government endorsement of their views. See Walker,
135 S. Ct. at 2249. As the Supreme Court reasoned in
Walker,
Indeed, a person who displays a message
on a Texas license plate likely intends to
convey to the public that the State has
endorsed that message. If not, the
individual could simply display the
message in question in larger letters on
a bumper sticker right next to the plate.
But the individual prefers a license plate
design to the purely private speech
expressed through bumper stickers.
That may well be because Texas’s license
plate designs convey government
agreement with the message displayed.
Id.

11

The City offered to allow Petitioners’ event to
occur that would feature local clergy and a celebration
of the Christian contributions to the founding of the
United States and the only request that was denied
was that of raising a Christian flag on the city-owned
flagpole. (App. 153a-154a.) The City did not deny the
Petitioners the ability to hold an event featuring
speeches by local clergy and celebrating Christian
values at the location of the City Hall Flag Poles.
Rather, the City denied them access to one of three
city-owned flagpoles to raise a flag representing a
particular religion in place of the City’s flag. Thus, it
can be inferred from the circumstances that the
Petitioners are not seeking permission to present
their flag as part of an event celebrating the Christian
religion or to engage in private speech, but are instead
seeking to use the flagpole to obtain the powerful
image of City approval of their religious views. See
Walker, 135 S. Ct. at 2249.
3.

The City Effectively Controls
Messages Broadcast Through Its
Flagpole By Exercising Final
Approval Authority Over The
Flags That Are Raised.

The third factor relied upon by the Summum
Court in determining the existence of government
speech was the fact that the town “effectively
controlled” the messages sent by monuments in the
public park by “exercising final approval authority”
over their selection. 555 U.S. at 473. The Court held
that public parks, which are closely identified with
the government in the public mind, play an important
role in defining the identity projected by a town or city
to its residents and visitors alike. Id. at 472. The fact
that government decision-makers took care to select
12

the monuments that they deemed to be appropriate
identifiers for the city, considering “content-based
factors as aesthetics, history and local culture,”
demonstrated that the monuments were meant to
convey and had the effect of conveying a government
message, thus constituting government speech. Id.
The City selected those monuments that it wanted to
display for the purpose of presenting a desired image
of the City to all visitors of the park. Id. at 473; see
e.g., Sutliffe, 584 F.3d at 331 (town defendants
effectively controlled the content of the message on
the town’s website by exercising final approval
authority over information displayed on it).
Furthermore, the selectivity exercised by a
government or town in selecting those messages with
which it chooses to identify need not be limited or
circumscribed in any way. As the Walker Court
pointed out in comparing Texas’s license plates to the
monuments in Summum;
Further, there may well be many more
messages that Texas wishes to convey
through its license plates than there
were messages that the city in Summum
wished
to
convey
through
its
monuments.
Texas’s
desire
to
communicate numerous messages does
not mean that the messages conveyed
are not Texas’s own.
Walker, 135 S. Ct. at 2251-52.
In the instant case, the record is clear that the
City exercises final approval authority over the flags
that are raised on its flagpoles and that the flagpoles
are treated differently than other locations at which
the City hosts events. In order for a flag-raising to be
approved, Rooney, as Commissioner of the Property
13

Management Department, must review the flagraising request to determine whether the proposed
flag-raising is consistent with City message and
practice. (App. 151a.) In this particular case, the City,
for the first time, received a request to raise a flag
purported to represent a religion. Due to concerns
related to the Establishment Clause brought about by
the prospect of hanging a religious flag prominently
in front of City Hall, in place of the City flag and
alongside the United States and Massachusetts flags,
Rooney consulted the City Law Department and
reviewed historical flag-raisings to determine
whether any overtly religious flags had been raised in
the past. (App. 150a-152a.) After conducting this
thorough inquiry and determining that the City had
not raised overtly religious flag in the past, Rooney
determined that it was not in the best interest of the
City to raise a Christian flag above City Hall. (App.
155a.)
Moreover, Petitioners attempt to point to the
fact that the City has held 284 flag-raising ceremonies
over a twelve-year period as evidence that the City
has failed to maintain control of its flagpole, in turn
designating a public forum in its place. When viewed
in context though, 284 flag raisings over 12 years only
amounts to a flag other than the City of Boston flag
being raised approximately 15% of the time. The
Turkish flag itself has been raised over ten times
during that twelve year time period (App. 144a); and
the Bunker Hill Association flag raised three (3) times
during that time period (App. 145a). This record
demonstrates that the City has a practice of
conducting recurring flag-raising events with many
sovereign nations and several civic groups, and this
practice has spanned at least twelve years and
occupied the city-owned flagpole in place of the city
14

flag 284 times over those 12 years. (App. 174a-187a.)
This type of selective program is not indicative of a
City opening its flagpole to all comers wishing to
broadcast any message they choose, high above the
City in some type of come one, come all policy. See
Shurtleff v. City of Boston, 928 F.3d 166, 174
(2019)(holding that the City controls program of
raising third-party flags through application process,
approval by Property Management Commissioner
and limited instances of flag-raisings over a period of
years.). The City furthermore maintains that on the
instances it does open its flagpoles to third parties for
flag-raisings, it does so pursuant to the goals stated
on its website lending more support to the position
that the City has not designated its flagpole as a
public forum. (App. 143a.) Where the City has a
number of messages it wishes to broadcast over its
flagpole, it does not mean that those messages are not
the City’s own. See Walker, 135 S. Ct. at 2252.
Finally, the fact that the City, until recently,
did not have a policy governing its flag-raising policy
is irrelevant to the government speech analysis as
well. Summum, 555 U.S. at 473 (City did not adopt
express policy regarding monuments until after
rejection of Petitioner’s monument); see also Sutliffe,
584 F.3d at 332 (stating that written policy is
“irrelevant to whether (City’s) actions constitute
government speech”).
Petitioners’ allegation that the City commits a
crime by flying the flag of a foreign country from its
flagpoles because of a state law that prevents the
display of a foreign country’s flag upon an official
building is nonsensical. See Petitioner Brief at p. 9
(emphasis added). No fact exists in the record that
indicates the City places flags upon an official
building as opposed to flying such flags from flagpoles
15

that are separate and apart from the City Hall
building. Based on the plain and obvious meaning of
the statute cited by Petitioners, the City has
committed no violation where it has not placed any
foreign flags upon City Hall and such an allegation
demonstrates a failure to consider the words used in
the statute. Here the plain meaning of the statute is
conclusive and Petitioners’ argument has no merit.
See Griffin v. Oceanic Contractors, Inc., 458 U.S. 564,
571 (1982).
4.

Petitioners’ Reliance On the
Court’s Decision In Matal Is
Misplaced
Where
Federal
Trademarks
Bear
Little
Resemblance To A Flag Raised On
An 83 Foot Tall, City-Owned
Flagpole Located In Front Of City
Hall.

Petitioners rely on language in Matal where
the Court warns that passing off private speech as
government speech “by simply affixing a government
seal of approval, government could silence or muffle
the expression of disfavored viewpoints.” Matal v.
Tam, 137 S. Ct. 1744, 1758 (2017). Petitioners though
merely repeat this holding without examining any of
the facts forming the basis of the Matal Court’s
decision. In that case, the Court determined that the
content of trademarks registered by the federal
government did not qualify as a form of government
speech in part because “an examiner does not inquire
whether any viewpoint conveyed by a mark is
consistent with Government policy or whether any
such viewpoint is consistent with that expressed by
other marks already on the principal register.” Id. at
1758. The Court in Matal made it a point to specify
16

that the facts of that case were “far afield” from the
decision in Summum where monuments had been
used to speak to the public since ancient times, the
town exercised selectivity over the monuments, and
found government speech where the essential
function of the park would be destroyed if the town
were forced to accept all monuments. Id. at 1759.
The facts presented by the instant case are
inapposite to those presented in Matal, where here,
the City does in fact review flag-raising requests to
determine whether the message conveyed by a flag
comports with City message and policies. (App. 149a.)
The circumstances of the present case are far more
similar to those found in Summum where the City is
using its flagpole to convey messages to the public
about the city’s diversity and culture, the purpose of
which would be destroyed if the City were forced to
apply a policy of viewpoint neutrality with regards to
the flags it chooses to raise. (App. 143a.) The facts in
Matal bear little relationship to those presented here
and are inapplicable to this analysis.
Furthermore, the City did not refuse the
Petitioners the ability to hold an event featuring local
clergy on City Hall Plaza celebrating Christianity.
(App. 153a.) Such actions by the City are in no way
consistent with a desire to “silence or muffle the
expression of disfavored viewpoints.” Matal, 137 S.
Ct. at 1758.

17

B.

The City Has Not Designated Its
Flagpole As A Public Forum.
1.

The Facts Do Not Support The
Conclusion That The City Hall
Flag Pole Is A Designated Public
Forum.

A government entity creates a designated
public forum “only by intentionally opening a
nontraditional forum for public discourse.” Cornelius
v. NAACP Legal Def. & Educ. Fund, Inc., 473 U.S.
788, 802 (1985). To determine whether a government
has created a designated public forum Courts have
looked to the policy and practice of the government to
determine whether it intended such a designation. Id.
A designated public forum will not be found to have
been created where evidence of a contrary intent
exists on the part of the government, and in cases
where the principal function of the property would be
disrupted by the designation. Id. at 804. Of particular
importance in assessing the government’s intent is
the control that it asserts over the forum. See Perry
Educ. Ass’n v. Perry Local Educators’ Ass’n, 460 U.S.
37, 47 (2001) (finding that a school’s mail system had
not been designated as public forum where
permission to access the system needed to be granted
by individual school principal); see also Ark. Edu.
Television Comm’n v. Forbes, 523 U.S. 666, 679
(1998)(holding that government does not create a
designated public forum by reserving access to a
specific class of speakers that, in turn, must obtain
permission to access the forum).
In the present case, Petitioners only rely on a
City website and written event application to argue
that the City has made an explicit designation of a
public forum for the purpose of flag-raising
18

ceremonies on one of its flagpoles. (App. 132a-140a.)
This is not enough. The Petitioners fail to provide the
proper context as to how the City Hall Flag Poles are
referenced in the City’s online and written
applications, and do not once mention the fact that
the “City Hall Flag Poles” are treated as a location at
which one may request an event. The distinction is
critical. A closer look at the actual verbiage used in
the City’s available materials provides the needed
context.
With regards to the City’s written application,
it provides that the application applies to any public
event proposed to take place at Faneuil Hall, Sam
Adams Park, City Hall Plaza, City Hall Lobby, North
Stage or the City Hall Flag Poles. (App.
136a)(emphasis added). Furthermore, the application
contains a section entitled “Location:” (App. 135a136a.)
Within the “Location” section of the
application, “City Hall Flag Poles” is listed with a
square checkbox next to it among other locations at
which one may request to hold a public event. Id.
Even when one continues on to the City’s website
detailing the process for holding an event on cityowned properties near City Hall Plaza, the website in
pertinent part states that one needs permission from
the City to hold events at certain properties that
include a list of locations. (App. App. 133a)(emphasis
added). Among these locations, the City lists “at the
City Hall Flag Poles,” Id. (emphasis added). The City
explicitly treats the location at the City Hall Flag
Poles as a public forum in its written and website
materials. Other than a statement on the City’s
written application reading, “[w]here possible, the
Office of Property and Construction Management
seeks to accommodate all applicants seeking to take
advantage of Boston’s public forums” (App. 137a), the
19

record is barren of any indication that the City
intentionally opened a nontraditional forum on that
flagpole for public discourse. Shurtleff, 928 F.3d at
176 (citing Sutliffe, 584 F.3d at 333) (internal
quotations omitted). The record further reinforces the
fact that the designation of the location at the City
Hall Flag Poles as a public forum has no implications
on the separate and distinct flag-raising program.
Hosting events at the City Hall Flag Poles does not
necessarily entail a flag-raising ceremony. (App.
141a.) While a flag-raising event would necessarily
occur at the location of the City Hall flagpoles, such a
request would be analyzed differently, with the
Commissioner of PMD reviewing the request to
ensure it aligns with City messaging, than a request
at the same location not involving a flag-raising. (App.
140a-141a, 149a.)
Further distinguishing a flag-raising event
from those events taking place in the public forums
listed on the City’s materials is the access that the
public has to the locations referred to as public
forums. The City concedes that despite its application
process and set of posted guidelines, there is little it
can do to prevent groups of citizens from arriving
unannounced at those locations referred to as public
forums in order to exercise First Amendment rights
without first receiving the City’s permission. At most,
the City’s application process serves as a way to
reserve a public space for an event ahead of time.
In the event that a group of dissatisfied citizens
decided to descend upon the location at the City Hall
Flag Poles to protest a decision made by City
government, the City does not have the ability to
remove such protesters from a public forum merely
because they failed to fill out the proper application
form. Those same dissatisfied citizens though would
20

have no ability to raise a flag on the city-owned
flagpole once they arrived at the location of the City
Hall Flag Poles because to do so requires not only the
approval of the Commissioner of PMD, but also the
provision by the City of the hand crank necessary to
lower the City flag and raise the substitute flag. (App.
143a.) As the Court stated in Cornelius, “such
selective access, unsupported by evidence of a
purposeful designation for public use, does not create
a public forum.” 473 U.S. at 805.
The City has not designated a public forum
because it maintains discretion over the flags allowed
to be raised and it must also provide the means by
which to raise the flag, and thus the Petitioners have
failed to demonstrate such a purposeful designation.
Where the primary function of the City’s flagpole, i.e.,
conveying a City message, would be disrupted by a
finding that a designated public forum exists, the
Court should not infer that the City intended such a
designation.
2.

By Engaging In Government
Speech, The City Does Not
Implicate The Defendants’ Rights
Under The First Amendment and
Forum Analysis Is Inappropriate.

Moreover, where the City engages in
government speech when it decides to fly certain
flags, the traditional forum analysis applied to
government action related to private speech on
government property does not apply and Petitioners
cannot maintain their claims that the City has
engaged in viewpoint discrimination. See Summum,
555 U.S. at 481 (City’s decision is not subject to First
Amendment where Court had found existence of
government speech). When the City approves an
21

applicant’s flag-raising request, it has determined
that the message conveyed by the proposed flag
comports with the City’s policies and positions, and
that it agrees to engage in the expressive conduct of
raising the third-party flag in place of the City flag on
its own flagpoles. (App. 149a.) Thus, the inquiry into
whether the flagpoles constitute a “traditional” or
“designated” or “limited” public forum does not apply.
Unlike in the case of public parks or squares,
there is no history of governments allowing their
flagpoles to be used in a way that does not express a
message with which the government agrees. Cf.
Capitol Square Review and Advisory Bd. v. Pinette,
515 U.S. 753, 757 (1995) (finding analysis of contentbased restriction on speech appropriate where statute
authorized state-owned plaza at issue to be used for
public speeches, gatherings and festivals, both
religious and non-religious, and that property had
been used this way for over a century). Moreover, a
single flagpole occasionally and temporarily made
available for use by the public could only
accommodate a limited number of flag-raising
requests and could not reasonably be maintained as
an unregulated public forum without disruption to
the access and operations of City Hall. Shurtleff, 928
F.3d at 176 (citing Summum, 555 U.S. at 478 (noting
that “[t]he forum doctrine has been applied in
situations in which government-owned property or a
government program was capable of accommodating
a large number of public speakers without defeating
the essential function of the land or the program”).
Additionally, by allowing applicants to make
flag-raising requests, the City has not made an
affirmative choice to open up its flagpoles as a public
forum because it retains final approval authority over
the flags that are raised. See New Rochelle, 72 F.
22

Supp. 3d 468, 474, 478 (City was within its rights to
delegate to a third party the display and maintenance
of flags on a City-owned flagpole without creating a
public forum, or surrendering control of the flags
displayed).
Petitioner has argued that the First Circuit’s
decision in the instant case runs counter to precedent,
when in fact an analysis of the cases cited
demonstrate the consistency of the First Circuit’s
holding. All cases cited by Petitioner as inconsistent
involve a situation where courts have found that a
government speech was not present and that in its
absence, forum analysis was appropriate and
viewpoint discrimination was not protected. See
Matal, 137 S. Ct. at 1758; New Hope Family Servs.,
Inc., 966 F.3d 145, 174 (2d Cir. 2020); Wandering
Dago, Inc., 879 F.3d 20, 34-38 (2d Cir. 2018); Eagle
Point Educ. Ass’n/SOBC/OEA v. Jackson Cnty. Sch.
Dist. No. 9, 880 F.3d 1097, 1104 (9th Cir. 2018); Robb
v. Hungerbeeler, 370 F.3d 735, 745 (8th Cir. 2004).
Such holdings have no bearing on the present case
where the First Circuit determined the existence of
government speech and correctly held that forum
analysis was inappropriate in such a situation.
3.

Forum Analysis Is Inappropriate
Where The Viewpoint Neutrality
And Open Access Mandated By
The
Forum
Doctrine
Are
Incompatible With The Purpose
Of The City’s Flagpole.

In general, the Court has held that forum
analysis is inappropriate in this type of case where
the viewpoint neutrality and open access required by
the forum doctrine is incompatible with the intended
use of the property. Ark. Edu. Television Comm’n, 523
23

U.S. at 666, 672-73. The Court stated in Summum
that “the forum doctrine has been applied in
situations in which government-owned property or a
government program was capable of accommodating
a large number of speakers without defeating the
essential function of the land or the program.” 555
U.S. at 478. In Summum, the Court held that if forum
analysis were applied to the selection of permanent
monuments situated in public parks and the town
was forced to maintain viewpoint neutrality in
selecting monuments, it would result in cluttered
parks or the removal of long-standing monuments,
focusing on the space that such permanent
monuments would occupy within the park. Id. In
such a situation, the town would have little choice but
to refuse all monuments and the program of selecting
monuments to place in public would cease to exist. Id.
The First Circuit relied on the Court’s
reasoning in Summum when it held that a town’s use
of its own website to advocate for approval of a budget,
and its refusal to include a hyperlink to a website that
communicated
opposing
views,
constituted
government speech because the town’s decision to
include certain hyperlinks, even to other private
organizations, was within its sole discretion and
communicated an important message about its own
views. Sutliffe, 584 F.3d at 329. The Court supported
its holding by determining that forum analysis was
inappropriate where the requirement of viewpoint
neutrality and open access to the town’s website was
incompatible with the purpose of such a website. Id.
at 334. The Court reasoned that the application of the
public forum doctrine “could risk flooding the town
website with private links, thus making it impossible
for the town to effectively convey its own message and
defeating the very purpose of the website and
24

hyperlinks chosen by the town.” Id. Where the town
would be forced to open its website to such a degree
that it lost the ability to communicate a town message
through its own website, it would be reasonable for
that town to eliminate all private links from its
website. Id. Thus, the Court found that application of
the forum doctrine was inappropriate in a situation
where it would result in less as opposed to more
speech. Id. Furthermore, if a designated public forum
were found to exist, the City faces the potential
“prospect of cacophony on the one hand, and First
Amendment liability, on the other … the safe course
is to avoid controversy … and by so doing diminish
the free flow of information and ideas.” Ark. Edu.
Television Comm’n, 523 U.S. at 681 (internal
quotations omitted).
A requirement of viewpoint neutrality on the
City’s flagpole forces the City into a position of
choosing between the prospect of cacophony on one
hand and First Amendment liability on the other. In
such a situation, forum analysis is inappropriate.

25

CONCLUSION
For all the foregoing reasons, the Petition for a
Writ of Certiorari should be denied.
Respectfully submitted,
HENRY C. LUTHIN

Corporation Counsel, City of Boston

/s/ Susan M. Weise
SUSAN M. WEISE

Counsel of Record

ROBERT S. ARCANGELI
CITY OF BOSTON LAW DEPARTMENT
One City Hall Square, Room 615
Boston, MA 02201
(617) 635-4044
susan.weise@boston.gov
robert.arcangeli@boston.gov

Counsel for Respondents
City of Boston and
Gregory T. Rooney
Dated: July 23, 2021

26

